NATIONAL ENDOWMENT FOR THE ARTS
    OFFICE OF INSPECTOR GENERAL




 SEMIANNUAL REPORT TO THE CONGRESS

   APRIL 1, 2012 - SEPTEMBER 30, 2012
SEMIANNUAL REPORT TO THE CONGRESS
      APRIL 1, 2012 - SEPTEMBER 30, 2012

       OFFICE OF INSPECTOR GENERAL

     NATIONAL ENDOWMENT FOR THE ARTS
                                                                        October 30, 2012



MEMORANDUM

TO:           Rocco Landesman
              Chairman

FROM:         Tonie Jones
              Inspector General


SUBJECT:      Semiannual Report to the Congress: April 1, 2012 - September 30, 2012

The Inspector General Act of 1978 (IG Act), as amended (5 U.S.C. App.), calls for the
preparation of semiannual reports to the Congress summarizing the activities of the Office of
Inspector General (OIG) for the six-month periods ending each March 31 and September 30.
I am pleased to enclose the report for the period from April 1, 2012 - September 30, 2012.

The Inspector General’s report is intended to cover audits, inspections, evaluations,
investigations and other reviews conducted by the OIG. The report also indicates the status of
management decisions whether to implement or not to implement recommendations made by
the OIG. The former President’s Council on Integrity and Efficiency developed the reporting
formats for Tables I and II to ensure consistent presentation by the Federal agencies. The
tables provide only summary totals and do not include a breakdown by auditee.

The Act requires that you transmit this report to the appropriate committees of the Congress
within 30 days of receipt, together with any comments you may wish to make. Comments that
you might offer should be included in your "Report on Final Action," a management report that
is required to be submitted along with the Inspector General’s report. We will work closely with
your staff to assist in the preparation of the management report. The due date for submission
of both reports is November 30, 2012.

I appreciate the continuing support we have received from the Chairman’s Office and your
managers throughout the Agency. Working together, I believe we have taken positive steps to
improve Agency programs and operations. We look forward to continuing these efforts.
                                 TABLE OF CONTENTS
                                                                                   PAGE

NATIONAL ENDOWMENT FOR THE ARTS                                                      1

OFFICE OF INSPECTOR GENERAL                                                          1

SUMMARY OF WORK COMPLETED BY THE OIG                                                 2

   Audits/Inspections/Evaluations/Reviews                                            2
   Audit Resolution                                                                  2
   Inspections                                                                       2
   Investigations                                                                    2
   Audit of the NEA Fiscal Year 2012 Financial Statements                            2
   NEA’s Compliance with the Federal Information Security Management Act of 2002     3
   Review of Legislation, Rules, Regulations and Other Issuances                     3
   Technical Assistance                                                              3
   Web Site                                                                          3
   Other Activities                                                                  3
   Strategic Plan & Five-Year Audit Plan                                             4

SECTIONS OF REPORT                                                                   5

   SECTION 1 - Significant Problems, Abuses and Deficiencies                         5

   SECTION 2 - Recommendations for Corrective Action                                 5

   SECTION 3 - Recommendations in Previous Reports on Which
                 Corrective Action Has Not Been Implemented                          5

   SECTION 4 - Matters Referred to Prosecuting Authorities                           5

   SECTION 5 - Denials of Access to Records                                          5

   SECTION 6 - Listing of Reports Issued                                             6

   SECTION 7 - Listing of Particularly Significant Reports                           7

   SECTION 8 - Statistical Tables Showing Total Number of Audit Reports,
                 Inspection Reports and Evaluation Reports, and the
                 Dollar Value of Questioned Costs                                    7

   SECTION 9 - Statistical Tables Showing Total Number of Audit Reports,
                 Inspection Reports and Evaluation Reports, and the Dollar
                 Value of Recommendations that Funds be Put to Better
                 Use by Management                                                   7
                                TABLE OF CONTENTS

                                                                                        PAGE

     SECTION 10 - Audit Reports, Inspection Reports and Evaluation Reports
                   Issued Before the Commencement of the Reporting
                   Period for Which No Management Decision Has Been Made by
                   the End of the Reporting Period                                          7


     SECTION 11 - Significant Revised Management Decisions Made During the Period           7

     SECTION 12 - Significant Management Decisions With Which the Inspector
                    General Disagrees                                                       7

TABLE I - Inspector General Issued Reports With Questioned Costs                            8

TABLE II - Inspector General Issued Reports With Recommendations That Funds
              Be Put To Better Use                                                          9

Definitions of Terms Used                                                           Appendix A

Strategic Plan & Five-Year Audit Plan 2013 – 2017                                   Appendix B
NATIONAL ENDOWMENT FOR THE ARTS
Founded in 1965, the National Endowment for the Arts (NEA) offers assistance to a wide range of
non-profit organizations and individuals that carry out arts programming, as well as to State Arts
Agencies and Regional Arts Organizations. The NEA supports exemplary projects of excellence in
the artistic disciplines of artist communities, dance, design, folk and traditional arts, literature, media
arts, museums, music, musical theater, opera, presenting, theater, and visual arts, as well as for arts
education projects and local arts agencies. Grants are awarded for specific projects rather than for
general operating or seasonal support. Most NEA grants are matched dollar for dollar with non-
federal funds. The NEA received $146.021 million, net a rescission of .16%, through the Consolidated
Appropriations Act, 2012.

OFFICE OF INSPECTOR GENERAL
The Inspector General Act of 1978 (IG Act), as amended (5 U.S.C. App.), established independent,
objective units within Federal agencies for oversight purposes. In 1988, the Congress amended
the IG Act (P.L. No. 100-504) to establish statutory Inspectors General at additional departments
and agencies, as well at designated Federal entities and establishments, including the National
Endowment for the Arts. The mission of the Office of Inspector General (OIG) is to:

       -       Conduct and supervise independent and objective audits, inspections and
               evaluations relating to NEA programs and operations;

       -       Promote economy, effectiveness, and efficiency within the NEA;

       -       Prevent and detect fraud, waste, and abuse in NEA programs and operations;

       -       Review and make recommendations regarding existing and proposed legislation and
               regulations relating to NEA programs and operations; and

       -       Keep the NEA Chairman and the Congress fully and currently informed of problems
               in Agency programs and operations.

On October 14, 2008, the President signed the Inspector General Reform Act of 2008, Public Law
110-409. The 2008 Act amends the previous IG Act of 1978 by enhancing the independence of the
Inspectors General and creating a Council of the Inspectors General on Integrity and Efficiency.

This semiannual report summarizes the OIG's major activities, initiatives, and results for the six-
month period ending September 30, 2012. The OIG consists of four full-time positions, the
Inspector General and three auditors. Currently, the OIG is fully staffed. There is no investigator or
general counsel on the staff. To provide a reactive investigative capability, we have a Memorandum
of Understanding with the General Services Administration’s Office of Inspector General (GSA
OIG) to provide investigative coverage for us on a reimbursable basis as needed. (No investigative
coverage from GSA OIG was needed during the recent six-month period.) We have a
Memorandum of Understanding with the National Credit Union Administration’s Office of Inspector
General (NCUA OIG) that details procedures to be used for providing the NEA OIG with legal
services pursuant to the new requirements reflected in the 2008 Act. An NCUA OIG staff member
has been assigned to provide such services on an as-needed basis. We also have a Memorandum
of Understanding with the International Trade Commission's Office of Inspector General (ITC OIG)
to provide technical assistance with our evaluation of NEA's compliance with the Federal
Information Security Management Act of 2002.

                                                                                                         1
SUMMARY OF WORK COMPLETED BY THE OIG
During the six-month period ending September 30, 2012, the OIG conducted the following audits,
inspections, evaluations, reviews, investigations, and other activities.

Audits/Inspections/Evaluations/Reviews

During the recent semiannual period, the OIG issued six reports which contained twenty four
recommendations based on audits and evaluations performed by OIG personnel. Ten
recommendations related to NEA grantees were cleared during this reporting period. We also
issued four memoranda to the agency related to NEA grantees which contained four
recommendations, all of which the agency implemented.

Audit Resolution

At the beginning of the six-month period, there was one report awaiting a management decision to
allow or disallow questioned costs of $82,033 with potential refunds of $48,036. The organization
submitted documentation to support the questioned costs. A management decision was made to
allow all of the questioned costs in the amount of $82,033, which eliminated potential refunds of
$48,036. (See Table I)

During the period, two of the newly issued reports identified questioned costs of $712,290 with
potential refunds of $355,900. The organizations submitted documentation to support most of the
questioned costs. Management decisions were made to allow $711,895 of the questioned costs,
which eliminated potential refunds of $355,505. A management decision was also made not to
allow $395 of the questioned costs, which was refunded to the agency.(See Table I)

Inspections

The OIG did not conduct any inspections during the recent six-month period.

Investigations

The OIG did not open any new allegation cases during the recent six-month period. The one case
opened prior to the start of the period remained open at the end of the period.

Audit of the NEA Fiscal Year 2012 Financial Statements

The Accountability of Tax Dollars Act of 2002 requires the NEA Office of Inspector General or an
independent external auditor, as determined by the Inspector General, to audit the agency financial
statements. Under a competitively awarded contract monitored by the OIG, Leon Snead &
Company, an independent certified public accounting and management consulting firm, received a
one-year contract, with a four-year option, in January 2011 to audit the NEA’s financial statements.
The audit will be conducted following Generally Accepted Government Auditing Standards
(GAGAS) and OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
revised. In addition, the firm will provide reports on internal controls and compliance with laws and
regulations for matters relevant to the financial statement audit. The report is scheduled to be
issued by the November 15, 2012 deadline.



                                                                                                        2
NEA’s Compliance with the Federal Information Security Management Act of 2002
(FISMA)

FISMA requires that each federal agency develop, document, and implement an agency-wide
program for providing security for the information and information systems that support the
operations and assets of the agency, including those provided or managed by another agency,
contractor, or other source.

The OIG completed a full FISMA evaluation in FY 2011 using the most recent applicable FISMA
requirements and guidelines published by the OMB, the U.S. Department of Homeland Security
and the National Institute of Standards and Technology. The assessment found that although NEA
made progress in complying with FISMA, some additional improvements were needed. The OIG
made eleven recommendations. Corrective actions for all of the recommendations are in process.
The OIG is currently conducting the FY 2012 FISMA evaluation, which is due to OMB on
November 15, 2012.

Review of Legislation, Rules, Regulations and Other Issuances

The OIG is required to review and comment on proposed legislation and regulations for potential
impact on the Agency and its operations. During this reporting period, the OIG provided analyses
and written commentaries on Agency and other government publications/reports and regulations.

Technical Assistance

The OIG provided technical assistance to NEA grantees and their independent auditors. Our
efforts included, for example, clarifying and interpreting the audit requirements of OMB Circular A-
133, “Audits of States, Local Governments, and Non-Profit Organizations," and advising some of
the first-time and smaller organizations on implementing practical accounting systems and internal
controls sufficient to assure compliance with their grant agreements.

The OIG also assisted Agency staff with technical issues related to auditing, accounting, and audit
followup.

Web Site

The OIG maintains an ongoing Internet presence (www.arts.gov/about/OIG/Contents.html) to assist
and inform NEA grantees and Agency employees. The site includes pages for Reports; Recovery
Act including a section for Training and Resources; Reporting Fraud, Waste and Abuse; Career
Opportunities; External Peer Reviews of the OIG and Other Resources.

Other Activities

During this period, the OIG took part in the activities of the Council on Inspectors General for
Integrity and Efficiency (Council), and allocated resources for responding to information requests
from and for the Congress and other agencies. We have also participated in various efforts by the
Council and other federal agencies to develop effective oversight strategies for Recovery Act
activities. We continued our proactive oversight of NEA’s management of its Recovery Act funds
with an emphasis on the evaluation of recipients’ management of Recovery Act funds.




                                                                                                       3
The Government Accountability Office’s Government Auditing Standards requires audit
organizations that perform audits or attestation engagements to have an appropriate system of
quality control and to undergo external peer reviews at least once every 3 years. Federal audit
organizations can receive a rating of Pass, Pass with deficiencies, or Fail. A peer review of the
OIG was conducted August 2010 by the Federal Trade Commission's Office of Inspector General.
The OIG received a rating of Pass.

The Improper Payments Information Act (IPIA) of 20023 and the Office of Management and Budget
(OMB) Circular A-123, Appendix C, Management’s Responsibility for Internal Control: Requirements
for Effective Measurement and Remediation of Improper Payments, require agencies to review all
programs and activities, identify those that are susceptible to significant erroneous payments, and
determine an annual estimated amount of erroneous payments made in those payments. The IPIA
was followed by the Improper Payments Elimination and Recovery Act (IPERA) in 2010 and a series
of OMB memoranda which included requirements for inspectors general to annually review and report
on their agency’s compliance with IPERA. The first annual report was due by March 15, 2012 to the
head of the agency, Congress, OMB and the General Accountability Office. We issued our first
annual report March 5, 2012.

Strategic Plan & Five-Year Audit Plan

We have issued our Strategic Plan & Five-Year Audit Plan for the Years 2013 – 2017. Our planning
methodology is built around the concept of issue areas and issues. The issue areas are broad
categories of prime importance: they highlight the priorities of our customers - Agency
management, the Congress and the American people. The individual issues, expressed as
questions, represent an assessment of the most significant concerns facing the NEA. The
methodology also includes the formulation of annual audit work plans.




3
    P.L. 111-204.
                                                                                                    4
                                 SECTIONS OF REPORT
The following sections of this report discuss the 12 areas specifically required to be included
according to Section 5(a) of the IG Act of 1978, as amended. Table I shows Inspector General
issued reports with questioned costs and Table II shows that there were no Inspector General
issued reports with recommendations that funds be put to better use.

SECTION 1 – Significant Problems,                    SECTION 2 – Recommendations for
Abuses and Deficiencies                              Corrective Action

Audits, evaluations and other reviews                To assist grantees in correcting or avoiding
conducted by OIG personnel during the                the deficiencies identified in Section 1, the
current and prior periods have disclosed a           OIG utilizes two “Financial Management
few instances of deficient financial                 Guides,” one for non-profit organizations and
management practices in some organizations           the other for state and local governments.
that received NEA grants. Among these                The guides are not offered as complete
were:                                                manuals of procedures; rather, they are
                                                     intended to provide practical information on
   Not accounting for costs separately by           what is expected from grantees in terms of
    grant award; (e.g., accounting structures        fiscal accountability. The guides are available
    that do not provide accurate and complete        at www.arts.gov/about/OIG/Guidance.html.
    information about all financial transactions
    related to each Federally-supported              The guides discuss accountability standards
    project);                                        in the areas of financial management, internal
                                                     controls, audit, and reporting. The guides
   Reported grant project costs did not agree       also contain sections on unallowable costs
    with the accounting records, (e.g.,              and shortcomings to avoid. In addition, the
    financial status reports were not always         guides include short lists of useful references
    prepared directly from the general ledger,       and some sample documentation forms.
    subsidiary ledgers or worksheets);
                                                     SECTION 3 – Recommendations in
   Personnel costs charged to grant projects        Previous Reports on Which Corrective
    were not supported by adequate                   Action Has Not Been Implemented
    documentation, (e.g., personnel activity
    reports were not maintained to support           There were no significant recommendations
    allocations of personnel costs to NEA            in previous reports on which corrective
    projects);                                       actions has not been implemented.

   Grantees needed to improve internal              SECTION 4 – Matters Referred to
    controls, (e.g., ensuring that contractors       Prosecuting Authorities
    and recipients are not debarred or
    suspended from receiving Federal funds           No matters were referred to prosecuting
                                                     authorities during this reporting period.
    prior to the payment or award of Federal
    funds and developing written policies and
                                                     SECTION 5 – Denials of Access to
    procedures for the management of
                                                     Records
    Federal awards).
                                                     No denials of access to records occurred
                                                     during this reporting period.




                                                                                                 5
            SECTION 6 – Listing of Reports Issued and OIG Hotline Contacts



REPORT                                                                                                                                             DATE OF
NUMBER                                                              TITLE                                                                          REPORT


                                                    Limited Scope Audit Report

LS-12-01    Illinois Arts Council (IL) ......................................................................................................................................
                                                                                                                                                   04/04/12
LS-12-02    Association of Performing Arts Presenters (DC) ...............................................................................................
                                                                                                                                                   08/03/12


                                Financial Management System & Compliance Evaluations
                                                                                                                                                                                    08
SCE-12-02   Department of Cultural Affairs and Special Events (IL)) ...................................................................................
                                                                                                                                            05/21/12
SCE-12-03   Association of Performing Arts Presenters (DC) ...............................................................................................
                                                                                                                                            06/20/12
SCE-12-04   Society for the Arts in Healthcare (DC) .............................................................................................................
                                                                                                                                            07/09/12
SCE-12-05   Americans for the Arts(DC) ...............................................................................................................................
                                                                                                                                            09/04/12

                                                        TOTAL REPORTS – 6


                                                                     Memoranda

M-12-04     Music Theatre Group (NY) ................................................................................................................................
                                                                                                                                           05/22/12
M-12-05     Commonwealth Council for Arts and Culture(CMNI) ........................................................................................
                                                                                                                                           07/05/12
M-12-08     Commonwealth Council for Arts and Culture (CMNI) .......................................................................................
                                                                                                                                           08/02/12
M-12-10     American Samoa Council on Arts, Culture and Humanities (AS) .....................................................................
                                                                                                                                           08/13/12

                                                   TOTAL MEMORANDA – 4



                                                                Contacts

                             Telephone Calls………………………………………………………………….                                                                        2
                             Email ……………………………………………………………………………..                                                                            0
                             Standard Mail…………………………………………………………………….                                                                         0
                             Referred by Other Sources……………………………………………………..                                                                  0
                             Fax………………………………………………………………………………..                                                                              0

                                                      TOTAL CONTACTS – 2




                                                                                                                                                                                6
SECTION 7 – Listing of Particularly               SECTION 10 – Audit Reports, Inspection
Significant Reports                               Reports, and Evaluation Reports Issued
                                                  Before the Commencement of the Reporting
There were no particularly significant reports    Period for Which No Management Decision
during the reporting period.                      Has Been Made by the End of the Reporting
                                                  Period
SECTION 8 – Statistical Tables Showing
Total Number of Audit Reports, Inspection         As shown on Table I, there was one audit
Reports, and Evaluation Reports and the           report issued before the commencement of the
Dollar Value of Questioned Costs                  reporting period for which no management
                                                  decision has been made by the end of the
Table I of this report presents the statistical   reporting period.
 information showing the total number of
audit reports, inspection reports, and            SECTION 11 – Significant Revised
evaluation reports and the total dollar value     Management Decisions Made During the
of questioned costs.                              Period

SECTION 9 – Statistical Tables Showing            No significant revised management decisions
Total Number of Audit Reports, Inspection         were made during the reporting period.
Reports, and Evaluation Reports and the
Dollar Value of Recommendations that              SECTION 12 – Significant Management
Funds be Put to Better Use by                     Decisions With Which the Inspector General
Management                                        Disagrees

As shown on Table II, there were no audit         There were no significant management
reports, inspection reports and evaluation        decisions that the Inspector General disagreed
reports with recommendations that funds be        with during the reporting period.
put to better use by management.




                                                                                        7
                                                                 TABLE I

                             INSPECTOR GENERAL ISSUED REPORTS
                                   WITH QUESTIONED COSTS


                                                                                  QUESTIONED UNSUPPORTED                         POTENTIAL
                                                                 NUMBER                COSTS                 COSTS               REFUNDS 4
       A. For which no management decision
           has been made by the commencement
           of the reporting period                                     1                   82,033              (82,033)                48,036


       B. Which were issued during the reporting
           period                                                      2                 712,290             (712,290)               355,900


           Subtotals (A + B)                                           3                 794,323             (794,323)               403,936


       C. For which a management decision was
           made during the reporting period 5                          3                 794,323             (794,323)               403,936


           (i)    Dollar value of disallowed costs                     1                      395                  (395)                   395


           (ii)   Dollar value of costs not
                  disallowed                                           3                 793,928             (793,928)               403,541


       D. For which no management decision has
           been made by the end of the reporting
           period                                                      0                          0                   (0)                     0


           Reports for which no management
           decision was made within six months of
           issuance                                                    0                          0                   (0)                     0




4
  The potential refund amount may not equal the questioned cost amount because matching requirements must be considered and the grantee
may be either under or over matched. In addition, historically, the potential refund generally is reduced significantly as a result of the audit
follow-up process, which includes examination of documentation submitted by the grantee.

5 In one report, two management decisions were made to (1) not accept $395 in questioned costs and (2) accept $2,310 in questioned costs.
                                                                                                                                                   8
                                       TABLE II

         INSPECTOR GENERAL ISSUED REPORTS
WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                             DOLLAR
                                                    NUMBER    VALUE

 A. For which no management decision has been
    made by the commencement of the reporting
    period                                            0        0

 B. Which were issued during the reporting
    period                                            0        0

    Subtotals (A + B)                                 0        0

 C. For which a management decision was made
    during the reporting period                       0        0

    (i)    dollar value of recommendations
           that were agreed to by management          0        0

           - based on proposed management
             action                                   0        0

           - based on proposed legislative action     0        0

    (ii)   dollar value of recommendations that
           were not agreed to by management           0        0

 D. For which no management decision has been
    made by the end of the reporting period           0        0

    Reports for which no management decision
    was made within six months of issuance            0        0




                                                                      9
                                                                                  APPENDIX A


                            DEFINITIONS OF TERMS USED

The following definitions apply to terms used in reporting audit statistics:


Questioned Cost                       A cost that the Office of Inspector General (OIG)
                                      questioned because of alleged violation with a provision of
                                      a law, regulation, contract, other agreement or document
                                      governing the expenditure of funds; such cost is not
                                      supported by adequate documentation; or the expenditure
                                      of funds for the intended purpose is unnecessary or
                                      unreasonable.

Unsupported Cost                      A cost which the OIG questioned because the cost was
                                      not supported by adequate documentation at the time of
                                      the audit.

Disallowed Cost                       A questioned cost that management has sustained or
                                      agreed should not be charged to the NEA grant or
                                      cooperative agreement.

Funds Be Put To Better Use            A recommendation made by the OIG that funds could be
                                      used more efficiently if management took actions to
                                      implement and complete the recommendation.

Management Decision                   Management's evaluation of the findings and
                                      recommendations contained in the audit report and the
                                      issuance of management’s final decision, including actions
                                      to be taken. Interim decisions and actions are not
                                      considered final management decisions for the purpose of
                                      the tables in this report.

Final Action                          The completion of all actions that management has
                                      concluded in its management decision with respect to
                                      audit findings and recommendations. If management
                                      concluded that no actions were necessary, final action
                                      curs when a management decision was made.
                             APPENDIX B




   STRATEGIC PLAN
          &
FIVE-YEAR AUDIT PLAN
      2013 - 2017




NATIONAL ENDOWMENT FOR THE ARTS
   OFFICE OF INSPECTOR GENERAL
           October 2012
                                               TABLE OF CONTENTS

                                                                                                                          Page

INTRODUCTION ........................................................................................................... 1

     Foreword .................................................................................................................. 1

     OIG Mission Statement ............................................................................................ 1

     Duties and Responsibilities of the Inspector General ............................................... 2

     Authority of the Inspector General ............................................................................ 3

     Jurisdiction of the Inspector General ........................................................................ 3

     Planning Methodology .............................................................................................. 4

     OIG Resource Requirements .................................................................................... 5

STRATEGIC ISSUE AREAS .......................................................................................... 5

     Issue Area 1: NEA Program Activities ..................................................................... 5

     Issue Area 2: NEA Administrative Operations ......................................................... 7

     Issue Area 3: OIG Administration and Investigations .............................................. 8

PERFORMANCE MEASURES ..................................................................................                       10

FIVE-YEAR AUDIT PLAN ............................................................................................. 11

     Audit Plan FY 2013 ................................................................................................ 12

     Audit Plan FY 2014 ................................................................................................ 13

     Audit Plan FY 2015 ................................................................................................ 14

     Audit Plan FY 2016 ................................................................................................ 15

     Audit Plan FY 2017 ................................................................................................. 16

     Other Activities ........................................................................................................ 17
                                        INTRODUCTION


Foreword

The Office of Inspector General (OIG) of the National Endowment for the Arts (NEA) was
established in 1989 pursuant to Public Law 100-504, "The Inspector General Act Amendments
of 1988" (IG Act). On October 14, 2008, the President signed the Inspector General Reform
Act of 2008, Public Law 110-409, which amends the previous IG Act to enhance the
independence of the Inspectors General, to create a Council of the Inspectors General on
Integrity and Efficiency, and other purposes. This document describes the plan of the OIG for
discharging its ongoing responsibilities under the Act, and for meeting its operational objectives
for the period from fiscal year 2013 through fiscal year 2017.

This strategic plan is also a response to the General Accounting Office Report No. B-244053,
"Inspectors General: Action Needed to Strengthen OIGs at Designated Federal Entities." That
report recommended that the OIGs develop strategic plans, prepare annual work plans for each
year of a five-year period, and report the plans to their entity heads and, in their semiannual
reports, to the Office of Management and Budget and the Congress.

OIG Mission Statement

The Office of Inspector General, National Endowment for the Arts, is a team of skilled
personnel dedicated to helping the Agency reach its essential goals and objectives. To this
end, the Office of Inspector General independently conducts activities such as audits,
evaluations, investigations and special reviews with accuracy, balance and objectivity. Working
with management to help avoid problems before they occur, our mission is to: promote
economy, efficiency and effectiveness in NEA activities; prevent and detect fraud, waste and
abuse; advocate ethics in government; and keep the Chairman and the Congress fully and
currently informed about problems and deficiencies relating to the administration of NEA
programs and operations.

In achieving our mission, the staff of the Office of Inspector General will be fair and equitable,
performing our duties with honesty and integrity. We will strive to be leaders and innovators in
our field of expertise and will be accountable for meeting our responsibilities. We will cooperate
with all components of the NEA, giving proper recognition to the rights, authorities and duties of
its employees and the public it serves.




                                                                                                 1
Duties and Responsibilities of the Inspector General

The Inspector General shall:

   Provide policy direction for, and conduct, supervise, and coordinate audits (including
    evaluations and other reviews that are conducted in accordance with applicable government
    standards) and investigations relating to the programs and operations of the NEA;

   Review existing and proposed legislation and regulations to determine their impact on
    economy and efficiency in the administration of, and the prevention and detection of fraud,
    waste and abuse in NEA programs and operations;

   Recommend policies and conduct, supervise, or coordinate activities both internal and
    external to the NEA, for the promotion of economy and efficiency, and the prevention and
    detection of fraud, waste and abuse in NEA programs and operations;

   Keep the NEA Chairman and the Congress fully and currently informed concerning fraud
    and other serious problems, abuses, and deficiencies relating to the administration of
    programs and operations financed by the NEA, or the identification and prosecution of
    participants committing such fraud or abuse;

   Comply with standards established by the Comptroller General of the United States for
    audits of Federal establishments, organizations, programs, activities and functions (the
    Government Auditing Standards);

   Give particular regard to the activities of the Comptroller General of the United States with a
    view toward avoiding duplication and ensuring effective coordination and cooperation;

   Establish guidelines for determining when it shall be appropriate to use non-Federal
    auditors, and give due regard to assuring that any work performed by non-Federal auditors
    complies with the Comptroller General's standards; and

   Report expeditiously to the Attorney General whenever the Inspector General has
    reasonable grounds to believe there has been a violation of Federal criminal law.




                                                                                                  2
Authority of the Inspector General

To carry out these responsibilities, the Congress has given the Inspector General:

   Access to all records, reports, audits, reviews, documents, papers, recommendations, or
    other material available to the NEA which relate to its programs and operations;

   Authority to conduct such investigations and reviews that are, in the judgment of the
    Inspector General, necessary or desirable;

   Authority to request information or assistance from any Federal, state or local government
    agency or unit thereof, as may be necessary for carrying out the duties and responsibilities
    of the Inspector General Act;

   Authority to issue subpoenas;

   Authority to administer and take an oath, affirmation or affidavit from any person when
    necessary;

   Direct and prompt access to the Chairman;

   Authority to select, appoint and employ such officers and employees as may be necessary
    for carrying out the functions, powers and duties of the OIG; and

   Within the limits of the established budget, authority to contract for audits, studies, analyses
    and other services.

Jurisdiction of the Inspector General

The OIG consolidates audit and investigative capabilities under the direction of a single official,
the Inspector General, who in turn reports directly to the Chairman and the Congress. Three
important features characterize the OIG: independence, objectivity and integrity.

Although under the Chairman’s general supervision, the Chairman may not prevent or prohibit
the IG from initiating, performing, or completing any audit or investigation. The IG is also
vested with special authorities that facilitate the performance of his or her mandate, and it is
from these provisions that the element of independence derives.

The IG legislation states that there should be no conflicting policy responsibilities between the
IG and the agency, thereby ensuring objectivity and independence. The IG's sole responsibility
is auditing, investigating, and initiating other activities designed to promote economy and
efficiency, and detect and prevent fraud, waste and abuse.




                                                                                                      3
The investigative jurisdiction of the OIG includes all allegations of fraud, abuse and
mismanagement, and any apparent or suspected violations of statute, order, regulation or
directive in connection with any program or operation of the NEA.

The audit jurisdiction of the OIG encompasses a wide range of audit services, including audits
and special reviews. Audits are characterized as: financial or performance; full-scope or
limited-scope; and external (focusing on the records of recipients of NEA funding) or internal
(focusing on operations and activities carried on within the NEA). Special reviews are used to
appraise and provide information about particular programs or projects. They include
inspections (typically focused on compliance issues), evaluations (commonly focused on
assessments of grantees’ financial management systems and grantee compliance), and
electronic data processing reviews (focused on data centers, application systems or
telecommunication systems). As part of our audit and review process, we examine audit
reports issued by other Federal agencies, state auditors, and independent public accountants to
determine whether the results of audits have either a past, current or potential effect on NEA
awards and what action, if any, is required by the NEA. In addition, reviews may be conducted
of individual awards to ensure proper reporting of expenditures.

The Inspector General's jurisdiction also includes the review of existing and proposed
legislation and regulations relating to NEA programs and activities. This is essentially a
reactive activity, limited to commenting on and making recommendations about the impact of
the legislation or regulation on economy and efficiency or the prevention of fraud, waste and
abuse. As an adjunct to the legal requirement, the Inspector General is consulted as a matter
of agency policy prior to issuance of internal directives and other significant pronouncements.

The Inspector General's jurisdiction is not always limited to the areas listed above. The IG may,
as circumstances dictate, be given special assignments by the Chairman.

Planning Methodology

The planning methodology that we have adopted is built around the concepts of issue areas
and issues. Issue areas are broad categories of prime importance: they highlight the priorities
of our customers -- Agency management, the Congress, and the American people -- and
contain a number of narrower topics or individual issues. The individual issues, expressed as
questions, represent an assessment of the most significant concerns facing the NEA.

The methodology also includes the formulation of annual audit work plans. The annual plan
defines the work to be done by: identifying individual jobs; assigning priorities; linking jobs to
the strategic issue areas; allocating staff among issue areas and issues; and serving as a
device for communicating with NEA officials. The work plans will, of course, require periodic
updates to reflect shifts in issue emphasis as well as changes in audit resources.




                                                                                                     4
It is expected that issue area planning will:

   Establish multi-year audit objectives consistent with Agency and congressional needs;

   Focus OIG resources on issues that represent the greatest risk to the NEA and those that
    offer the most opportunity for adding value;

   Reflect the OIG's budget requests and resource allocation decisions; and

   Provide a basis for measuring results and ensuring accountability.

OIG Resource Requirements

The OIG staff currently consists of four full-time positions, namely, the IG and three other
auditors. There is no investigator or general counsel on staff. To provide a reactive
investigative capability, we have a Memorandum of Understanding with the General Services
Administration's Office of Inspector General (GSA OIG) whereby the GSA's OIG agrees to
provide investigative coverage for us on a reimbursable basis as needed. We have a
Memorandum of Understanding with the National Credit Union Administration’s Office of
Inspector General (NCUA OIG) that details procedures to be used for providing the NEA OIG
with legal services pursuant to the new requirements reflected in the 2008 Act. We also
have a Memorandum of Understanding with the International Trade Commission's Office of
Inspector General (ITC OIG) to provide technical assistance with our evaluation of NEA's
compliance with the Federal Information Security Management Act of 2002.

It is possible that the resources provided for the OIG may, at some time, need to be changed.
Any such adjustment should be based on periodic evaluations of the OIG as gauged by the
performance measures identified in this strategic plan and available resources.

                                   STRATEGIC ISSUE AREAS

Issue Area 1:      NEA Program Activities

                   Major functions include:

                          Project monitoring; allowable costs; and compliance with reporting
                           requirements, and general terms and conditions
                          Audit followup
                          Grant award process

                Issue 1.1: Does the Agency evaluate completed projects to assess the benefits
                           and accomplishments attributable to NEA funding?

                           Strategy: The OIG will work with management to assess the
                           effectiveness of Agency practices for reviewing the results obtained
                           by recipients' projects as well as NEA's program initiatives.




                                                                                                  5
Issue 1.2: Does the Agency ensure that the recipients of NEA funding are held
           accountable for meeting their particular reporting requirements and
           for complying with the terms and conditions applicable to their
           awards?

           Strategy: The OIG will conduct audits and special reviews (such as
           evaluations) to verify accountability, allowability, and compliance with
           terms and conditions. In addition, the OIG will continue to review the
           implementation of corrective actions and advise management as to
           the effectiveness of the actions and whether the desired results were
           achieved. Furthermore, the OIG will provide technical assistance to
           grantees on how to maintain a financial management system and on
           how to comply with the financial aspects of the terms and conditions.

Issue 1.3: Are NEA's standards for determining grantee eligibility consistent with
           the Agency’s mission and legislated objectives?

           Strategy: The OIG will survey these measures to assess Agency
           compliance and evaluate the extent to which stated purposes are
           being achieved.

Issue 1.4: Does NEA provide potential applicants with information that is both
           appropriate and adequate regarding its funding initiatives?

           Strategy: The OIG will survey this function to assess timeliness,
           adequacy of content, and effectiveness in reaching potential
           applicants.

Issue 1.5: Does the NEA ensure that applications are processed and evaluated
           in accordance with legislative requirements and Agency policies?

           Strategy: The OIG will survey and document the existing policies and
           procedures at the Agency program level, Panel level and the Council
           level. Subsequent efforts will focus on areas in which compliance
           may be improved.

Issue 1.6: Do NEA’s policies and procedures for its AccessAbility program
           adequately provide a framework consistent with legislative
           requirements?

           Strategy: The OIG will conduct surveys and analyses as warranted to
           assess policies and initiatives for promoting AccessAbility’s goals and
           objectives.




                                                                                      6
Issue Area 2:   NEA Administrative Operations

                Major functions include:

                   Information systems
                   Financial management
                   Budget administration
                   Procurement and facilities
                   Human resources
                   Internal controls
                   Freedom of Information and Privacy Acts

            Issue 2.1: Is the Agency efficiently and effectively addressing the need to
                       modernize its information management systems, and in a manner
                       that allows it to continue meeting current operational needs while
                       maintaining consistency with provisions of the Computer Security Act,
                       OMB Circular No. A-130 and the Federal Information Security
                       Management Act of 2002?

                       Strategy: The OIG will continue to assist management by:
                       participating in task groups; periodically reviewing and commenting
                       on implementation issues; and performing internal control reviews on
                       new systems with a focus on security and problem prevention.

            Issue 2.2: Does the Agency's financial management system provide the
                       management information needed for: (1) budget planning and
                       formulation, budget allocation, and budget review and follow up; and
                       (2) monitoring costs and expenditures in accordance with the
                       requirements and initiatives of Congress, OMB, the Department of the
                       Treasury, and the Accountability of Tax Dollars Act of 2002?

                       Strategy: The OIG will conduct, through an independent auditor,
                       financial related audits to verify the integrity of budget execution, the
                       propriety of transactions, the validity of account balances, and the
                       accuracy of financial reports.

            Issue 2.3: Does the Agency effectively assure that procurement actions comply
                       with Federal and Agency requirements?

                       Strategy: The OIG will periodically review NEA's procurement
                       activities in accordance with Federal and Agency requirements.




                                                                                                   7
              Issue 2.4: Do NEA's policies and procedures provide a framework for the
                         efficient and effective use of human resources that are consistent with
                         EEO goals and objectives?

                         Strategy: The OIG will conduct surveys and analyses as warranted
                         to: (1) identify patterns and trends; (2) evaluate Agency
                         responsiveness to employee complaints or grievances; and (3)
                         assess management initiatives for promoting EEO goals and
                         objectives.

              Issue 2.5: Are the Agency's internal controls adequate to deter and detect fraud,
                         waste, abuse, and mismanagement?

                         Strategy: The OIG will conduct audits and other reviews to uncover
                         any weaknesses in internal controls and will prepare management
                         reports with recommendations for corrective action, if applicable.

              Issue 2.6: Do the Agency's policies and procedures on FOIA and the Privacy Act
                         adhere to Federal laws and regulations?

                         Strategy: The OIG will periodically review the Agency’s policies and
                         procedures for adherence to the Federal laws and regulations.

Issue Area 3: OIG Administration and Investigations

                 Major Functions Include:

                    Audit universe
                    Lines of communication
                    Allegations’ review
                    Staff professionalism
                    Regulatory review

              Issue 3.1: Does the OIG maintain an up-to-date audit universe, complete with
                         weighted criteria for assessing audit priorities?

                         Strategy: The OIG will update its universe of discrete auditable
                         areas, revising and prioritizing the criteria as appropriate.

              Issue 3.2: Does the OIG promote open relations and positive interaction with
                         Agency officials and others?

                         Strategy: The OIG will: seek frequent feedback from the Chairman,
                         senior staff and Agency managers as appropriate; actively participate
                         on NEA committees or task forces when opportunities exist to add
                         value. In addition, the OIG, when appropriate, will establish relations
                         with Congressional committees, GAO, the Department of Justice and
                         other law enforcement agencies, and the OIG community.




                                                                                                8
Issue 3.3: Does the OIG maintain an investigative capability that is appropriate
           for the NEA?

           Strategy: The OIG will continue to maintain a formal memorandum of
           understanding with the General Services Administration's (GSA) OIG
           to provide for the temporary assignment of professional criminal
           investigators as needed. OIG auditors will screen allegations and
           other indications of possible misconduct to determine whether there is
           a sufficient basis for investigation. If so, the OIG will, as appropriate,
           either refer the case to another investigative authority, request the
           temporary assignment of a criminal investigator from GSA's OIG, or
           investigate the case as a civil matter with the expectation that, after
           the necessary evidence is gathered and evaluated, the matter will be
           referred to NEA management for administrative action.

Issue 3.4: Does the OIG foster the professional growth of the OIG staff?

           Strategy: The OIG will establish a staff feedback process to
           encourage the open exchange of information and ideas, and will
           continue to budget training funds adequately to satisfy the continuing
           education standards established by the Comptroller General.

Issue 3.5: Does the OIG review existing and proposed legislation and
           regulations to determine their effect on the programs and operations
           of the NEA?

           Strategy: The OIG will continue to work with management, devising a
           process for ensuring that legislative and regulatory proposals are
           evaluated for their impact on the Agency.




                                                                                    9
                                 PERFORMANCE MEASURES

These measures are expected to help the OIG recognize successes, document achievements,
evaluate progress toward goals, and identify needs for improvement. The measures are
structured along the requirements of the IG Act and are intended to allow comparisons to
previous periods.

   Feedback from customers on the value added by audit reports and other reviews of
    programs and operations;

   Assessment of the significance of recommendations implemented to correct deficiencies,
    which should lead to improved operations;

   The number of technical and advisory activities that benefited from OIG participation;

   The number of laws and regulations reviewed.




                                                                                             10
                                     FIVE-YEAR AUDIT PLAN
                                           2013 - 2017


The following list of audits and audit-related efforts show how the OIG plans to use its available
audit resources to implement the strategies previously discussed. The objectives of each
project have been identified along with a short description of the work to be performed. While
the plan is flexible and subject to revision based on management's input and changing
conditions, it reflects our current assessment of relative risks and the most effective use of
limited audit resources.

Criteria for selection include:

   Statutory requirements and recommendations from other sources of Federal authority such
    as OMB or GAO;

   Requests from the Chairman or other high authority;

   Importance of the activity to the NEA's mission;

   Extent of NEA resources committed to the activity;

   Potential for fraud and other unlawful or improper acts;

   Agency needs as identified through consultation with representatives of management;

   Extent of audit coverage provided by GAO, consultants or other outside sources;

   Newness, changed conditions, or sensitivity of the activity;

   Adequacy of the existing internal control systems for the activity;

   Availability of audit staff with needed expertise; and

   Extent and results of prior reviews by the OIG.

   The review and reporting requirements of the American Recovery and Reinvestment Act of
    2009 (ARRA).

Note: The following pages reflect each year’s audit plan. In addition, on the very last page
there is a list of audits, evaluations or reviews that may be added at any time to one of the
upcoming years. For purposes of our audit plans, “grantee” refers to NEA grantees,
cooperators or contractors.




                                                                                                11
                                    AUDIT PLAN - FY 2013


Grantee Audits. Conduct audits and other reviews to: 1) determine the adequacy of grantees'
financial systems for managing and accounting for Federal funds, 2) evaluate the current
financial condition of grantee organizations, and 3) verify compliance with the terms and
conditions of NEA awards. The number of on-site audits to be conducted will depend on the
availability of auditors and travel funds. (Issue 1.2)

Evaluations. Conduct evaluations of grantees to determine the adequacy of financial
management systems and ensure that recordkeeping complies with the requirements
established by OMB and NEA’s General Terms and Conditions. Evaluations will be limited to
reviewing records of one to two awards. The availability of auditors, travel funds and the review
and reporting requirements for ARRA, will dictate the number of evaluations. Anticipate more
than 15 evaluations this year.
(Issue 1.2)

ARRA Reviews. Conduct evaluations and audits to (1) determine whether ARRA recipients are
in compliance with NEA and ARRA guidelines, and (2) compare grantees’ reported versus
projected data concerning numbers, types, and locations of jobs preserved with NEA’s ARRA
grants. The availability of auditors, travel funds and ARRA review and reporting requirements
will dictate the number of evaluations and audits. (Issue 1.2)

Audit Followup. Track the status of recommendations for corrective action and provide the
Audit Followup Official and other NEA managers with technical assistance in resolving audit
findings. This activity will be ongoing throughout the year. (Issue 1.2)

Information & Technology Management (ITM) and Privacy Management Review. Determine
whether the Agency's ITM policies, procedures, and practices are adequate for meeting its
operational and security needs, and whether they conform to accepted standards and
requirements. Review of security matters will be undertaken in accordance with the Federal
Information Security Management Act of 2002. Privacy review will be done in accordance with
OMB Memorandum
M-06-20 (Issue 2.1) (Issue 2.6)

Financial Statement Audit. Provide oversight of the independent CPA firm conducting the
financial statement audit of the Agency. (Issue 2.2)

Investigations. Investigate all allegations of fraud, waste, abuse, mismanagement, employee
misconduct or any apparent or suspected violation of law or official regulations. Although the
number of investigative reviews to be conducted cannot be predicted with confidence, in recent
years, the annual rate of new cases opened is two to three. (Issue 3.3)

Regulatory Review. Review existing and proposed legislation and regulations for effect on
Agency programs and operations. This activity will be ongoing throughout the year. (Issue 3.5)




                                                                                               12
                                    AUDIT PLAN - FY 2014


Grantee Audits. Conduct audits and other reviews to: 1) determine the adequacy of grantees'
financial systems for managing and accounting for Federal funds, 2) evaluate the current
financial condition of grantee organizations, and 3) verify compliance with the terms and
conditions of NEA grants. The number of on-site audits to be conducted will depend on the
availability of auditors and travel funds. (Issue 1.2)

Evaluations. Conduct evaluations of grantees to determine the adequacy of financial
management systems and ensure that recordkeeping complies with the requirements
established by OMB and NEA’s General Terms and Conditions. Evaluations will be limited to
reviewing the records of one to two grants. The availability of auditors, travel funds and the
work requirements for ARRA will dictate the number of evaluations. Anticipate more than 15
evaluations this year. (Issue 1.2)

ARRA Reviews. Conduct evaluations and audits to (1) determine whether ARRA recipients are
in compliance with NEA and ARRA guidelines, and (2) compare grantees’ reported versus
projected data concerning numbers, types, and locations of jobs preserved with NEA’s ARRA
grants. The availability of auditors, travel funds and ARRA review and reporting requirements
will dictate the number of evaluations and audits. (Issue 1.2)

Audit Followup. Track the status of recommendations for corrective action, and provide the
Audit Followup Official and other NEA managers with technical assistance in resolving audit
findings. This activity will be ongoing throughout the year. (Issue 1.2)

Information & Technology Management (ITM) and Privacy Management Review. Determine
whether Agency's ITM policies, procedures, and practices are adequate for meeting its
operational and security needs, and whether they conform to accepted standards and
requirements. Review of security matters will be undertaken in accordance with the Federal
Information Security Management Act of 2002. Privacy review will be done in accordance with
OMB Memorandum M-06-20 (Issue 2.1) (Issue 2.6)

Financial Statement Audit. Provide oversight of the independent CPA firm conducting the
financial statement audit of the Agency. (Issue 2.2)

Investigations. Investigate all allegations of fraud, waste, abuse, mismanagement, employee
misconduct or any apparent or suspected violation of law or official regulations. Although the
number of investigative reviews to be conducted cannot be predicted with confidence, in recent
years, the annual rate of new cases opened is two or three. (Issue 3.3)

Regulatory Review. Review existing and proposed legislation and regulations for effect on
Agency programs and operations. This activity will be ongoing throughout the year. (Issue 3.5)




                                                                                                 13
                                    AUDIT PLAN - FY 2015


Grantee Audits. Conduct audits and other reviews to: 1) determine the adequacy of grantees'
financial systems for managing and accounting for Federal funds, 2) evaluate the current
financial condition of grantee organizations, and 3) verify compliance with the terms and
conditions of NEA grants. The number of on-site audits to be conducted will depend on the
availability of auditors and travel funds. (Issue 1.2)

Evaluations. Conduct evaluations of grantees to determine the adequacy of financial
management systems and ensure that recordkeeping complies with the requirements
established by OMB and NEA’s General Terms and Conditions. Evaluations will be limited to
reviewing the records of one to two grants. The availability of auditors and travel funds will
dictate the number of evaluations. Anticipate more than 13 evaluations this year. (Issue 1.2)

ARRA Reviews. Conduct evaluations and audits to (1) determine whether ARRA recipients are
in compliance with NEA and ARRA guidelines, and (2) compare grantees’ reported versus
projected data concerning numbers, types, and locations of jobs preserved with NEA’s ARRA
grants. ARRA evaluations and audits will be incorporated into review process with other NEA
grants awarded to the recipient. The availability of auditors, travel funds and ARRA review and
reporting requirements will dictate the number of evaluations and audits.

Audit Followup. Track the status of recommendations for corrective action, and provide the
Audit Followup Official and other NEA managers with technical assistance in resolving audit
findings. This activity will be ongoing throughout the year. (Issue 1.2)

Information & Technology Management (ITM) and Privacy Management Review. Determine
whether Agency's ITM policies, procedures, and practices are adequate for meeting its
operational and security needs, and whether they conform to accepted standards and
requirements. Review of security matters will be undertaken in accordance with the Federal
Information Security Management Act of 2002. Privacy review will be done in accordance with
OMB Memorandum M-06-20 (Issue 2.1) (Issue 2.6)

Financial Statement Audit. Provide oversight of the independent CPA firm conducting the
financial statement audit of the Agency. (Issue 2.2)

Investigations. Investigate all allegations of fraud, waste, abuse, mismanagement, employee
misconduct or any apparent or suspected violation of law or official regulations. Although the
number of investigative reviews to be conducted cannot be predicted with confidence, in recent
years, the annual rate of new cases opened is two or three. (Issue 3.3)

Regulatory Review. Review existing and proposed legislation and regulations for effect on
Agency programs and operations. This activity will be ongoing throughout the year. (Issue 3.5)




                                                                                                 14
                                    AUDIT PLAN - FY 2016


Grantee Audits. Conduct audits and other reviews to: 1) determine the adequacy of grantees'
financial systems for managing and accounting for Federal funds, 2) evaluate the current
financial condition of grantee organizations, and 3) verify compliance with the terms and
conditions of NEA grants. The number of on-site audits to be conducted will depend on the
availability of auditors and travel funds. (Issue 1.2)

Evaluations. Conduct evaluations of grantees to determine the adequacy of financial
management systems and ensure that recordkeeping complies with the requirements
established by OMB and NEA’s General Terms and Conditions. Evaluations will be limited to
reviewing the records of one to two grants. The availability of auditors and travel funds will
dictate the number of evaluations. Anticipate more than 20 evaluations this year. (Issue 1.2)

Audit Followup. Track the status of recommendations for corrective action, and provide the
Audit Followup Official and other NEA managers with technical assistance in resolving audit
findings. This activity will be ongoing throughout the year. (Issue 1.2)

Information & Technology Management (ITM) and Privacy Management Review. Determine
whether Agency's ITM policies, procedures, and practices are adequate for meeting its
operational and security needs, and whether they conform to accepted standards and
requirements. Review of security matters will be undertaken in accordance with the Federal
Information Security Management Act of 2002. Privacy review will be done in accordance with
OMB Memorandum M-06-20 (Issue 2.1) (Issue 2.6)

Financial Statement Audit. Provide oversight of the independent CPA firm conducting the
financial statement audit of the Agency. (Issue 2.2)

Investigations. Investigate all allegations of fraud, waste, abuse, mismanagement, employee
misconduct or any apparent or suspected violation of law or official regulations. Although the
number of investigative reviews to be conducted cannot be predicted with confidence, in recent
years, the annual rate of new cases opened is two or three. (Issue 3.3)

Regulatory Review. Review existing and proposed legislation and regulations for effect on
Agency programs and operations. This activity will be ongoing throughout the year. (Issue 3.5)




                                                                                                 15
                                    AUDIT PLAN - FY 2017


Grantee Audits. Conduct audits and other reviews to: 1) determine the adequacy of grantees'
financial systems for managing and accounting for Federal funds, 2) evaluate the current
financial condition of grantee organizations, and 3) verify compliance with the terms and
conditions of NEA grants. The number of on-site audits to be conducted will depend on the
availability of auditors and travel funds. (Issue 1.2)

Evaluations. Conduct evaluations of grantees to determine the adequacy of financial
management systems and ensure that recordkeeping complies with the requirements
established by OMB and NEA’s General Terms and Conditions. Evaluations will be limited to
reviewing the records of one to two grants. The availability of auditors and travel funds will
dictate the number of evaluations. Anticipate 20 or more evaluations this year. (Issue 1.2)

Audit Followup. Track the status of recommendations for corrective action, and provide the
Audit Follow-up Official and other NEA managers with technical assistance in resolving audit
findings. This activity will be ongoing throughout the year. (Issue 1.2)

Information & Technology Management (ITM) and Privacy Management Review. Determine
whether Agency's ITM policies, procedures, and practices are adequate for meeting its
operational and security needs, and whether they conform to accepted standards and
requirements. Review of security matters will be undertaken in accordance with the Federal
Information Security Management Act of 2002. Privacy review will be done in accordance with
OMB Memorandum M-06-20 (Issue 2.1) (Issue 2.6)

Financial Statement Audit. Provide oversight of the independent CPA firm conducting the
financial statement audit of the Agency. (Issue 2.2)

Investigations. Investigate all allegations of fraud, waste, abuse, mismanagement, employee
misconduct or any apparent or suspected violation of law or official regulations. Although the
number of investigative reviews to be conducted cannot be predicted with confidence, in recent
years, the annual rate of new cases opened is two or three. (Issue 3.3)

Regulatory Review. Review existing and proposed legislation and regulations for effect on
Agency programs and operations. This activity will be ongoing throughout the year. (Issue 3.5)




                                                                                                 16
                                     OTHER ACTIVITIES *


Accessibility. Review the Agency’s policies and procedures for compliance with laws and
regulations governing accessibility. (Issue 1.6)

EEO. Review the Agency’s policies and procedures for compliance with laws and regulations
governing equal employment opportunities and the civil rights of NEA employees. (Issue 2.4)

FOIA. Review the Agency’s policies and procedures for adherence to Federal laws and
regulations. (Issue 2.6)

Grant Award Process. Review the Agency’s policies and procedures for providing potential
applicants with information that is appropriate and accurate. The review also will assess
timeliness, adequacy of content, and effectiveness in reaching potential applicants. (Issue 1.4)
Review the Agency’s policies and procedures employed by NEA staff, advisory panelists and
Council Operations in the screening of grant applications and the awarding of grants to ensure
there is fair and equitable treatment along with proper enforcement of the eligibility rules.
(Issues 1.3 and 1.5)

Procurement. Review the Agency’s procurement activities for compliance with Federal
regulations and Agency policies. (Issue 2.3)

Supply Management. Review policies and procedures to uncover any weaknesses in
administrative controls. (Issue 2.5)

Transit Benefits. Review and test for adequacy of controls over Agency’s transit benefits
program. (Issue 2.5)

Travel. Review NEA’s controls related to approving and monitoring the travel of Agency
employees. In addition, ensure that travel’s purpose is both reasonable and appropriate to
Agency’s mission. (Issue 2.5)

* The above areas may be considered at any time for an audit, evaluation or review based on
  the discretion of the OIG.




                                                                                              17
                                REPORTING WRONGFUL ACTS

Anyone, including Agency employees, who learns about or has reason to suspect the
occurrence of any unlawful or improper activity related to NEA operations or programs, should
contact the OIG immediately. A complaint/referral may be reported using any of the following
methods:
               Toll-free OIG Hotline: 1-877-535-7448
               Local Calls: 202-682-5479
               Fax: 202-682-5649
               Email: oig@arts.gov
               Website: www.arts.gov/about/oig/fraud.html


You may also visit or write us at the National Endowment for the Arts, Office of Inspector
General, Room 601, 1100 Pennsylvania Avenue, NW, Washington, DC 20506.

When contacting the OIG, it will help if you have answers to the following questions:

      Who are the parties involved (names, addresses and phone numbers if possible);

      What is the suspected activity (specific facts of the wrongdoing);

      When and where did the wrongdoing occur;

      How did you learn about the activity (from a third party, actual observation, conclusion
       drawn from observing or performing different activities, etc.); and

      Where can you be contacted or when will you contact us again.
The OIG will not disclose the identity of a complainant or informant without consent, unless the
Inspector General determines that such disclosure is unavoidable during the course of the
investigation. You may remain anonymous, if you choose. Federal employees are protected
against reprisal for disclosing information to the Inspector General unless such disclosure was
knowingly false.
   NATIONAL ENDOWMENT FOR THE ARTS




     CHAIRMAN’S SEMIANNUAL REPORT
            ON FINAL ACTION
RESULTING FROM AUDIT REPORTS, INSPECTION
   REPORTS, AND EVALUATION REPORTS

   April 1, 2012 through September 30, 2012




                 Submitted
               November 2012
                             TABLE OF CONTENTS




INTRODUCTION                                                                   1

REPORT ON FINAL ACTION RESULTING FROM AUDIT REPORTS,
INSPECTION REPORTS AND EVALUATION REPORTS

  Section 1    Comments Relating to the Inspector General's Report             2

  Section 2    Management Report on Final Action on Audits, Inspections,
               and Evaluations with Disallowed Costs for the Six-Month
               Period Ending September 30, 2012                                3

  Section 3    Management Report on Final Action on Audits, Inspections,
               and Evaluations with Recommendations to Put Funds to
               Better Use for the Six-Month Period Ending September 30, 2012   3

  Section 4    Audit Reports, Inspection Reports, and Evaluation Reports
               for Which a Management Decision Was Made Prior to
               April 1, 2012, but on Which Final Action Has Not Occurred       3

  Table A      Management Report on Final Action on Audits, Inspections,
               and Evaluations with Disallowed Costs for the Six-Month
               Period Ending September 30, 2012                                4

  Table B      Management Report on Final Action on Audits, Inspections,
               and Evaluations with Recommendations to Put Funds to
               Better Use for the Six-Month Period Ending September 30, 2012   5
                                  INTRODUCTION


The Inspector General Act of 1978, as amended by the Inspector General Act Amendments of
1988 (Public Law 100-504), established independent, objective units within Federal agencies
for the following purposes:

   •   To supervise and conduct audits and investigations of agency programs and operations;

   •   To lead, coordinate, and recommend policies for promoting economy, efficiency, and
       effectiveness in the administration of programs and operations, and to prevent and
       detect fraud and abuse therein; and

   •   To keep the agency head and the Congress informed about related problems and
       deficiencies and associated corrective action.

On October 14, 2008, the President signed the Inspector General Reform Act of 2008 (Public
Law 110-409). The 2008 Act amends the previous IG Act of 1978 to enhance the
independence of the Inspectors General, to create a Council of the Inspectors General on
Integrity and Efficiency, and for other purposes.

Section 106(a) of P.L. 100-504 requires the Inspector General to report semiannually on the
office’s activities for the preceding six-month periods ending March 31st and September 30th.
The report must (1) address significant problems, abuses, and deficiencies in the management
of agency programs and operations identified during the reporting period, and (2) identify
recommendations for corrective action. Section 106(b) directs the Inspector General to furnish
this report within 30 days to the agency head, who is required to prepare a separate report on
management decisions resulting from audit reports, inspection reports, evaluation reports, the
status of disallowed costs, and final actions taken during the corresponding period, including
any comments deemed appropriate. The agency head must transmit both reports to the
Congress within the ensuing 30 days.

Accordingly, the Chairman presents the Arts Endowment’s management report for the period
April 1, 2012 through September 30, 2012.




                                              1
        REPORT ON FINAL ACTION RESULTING FROM AUDIT REPORTS,
            INSPECTION REPORTS, AND EVALUATION REPORTS


Section 1.   Comments Relating to the Inspector General's Report

             A. Comments on OIG’s Summary Section

             Audits/Inspections/Evaluations/Reviews. As reported in the Inspector General’s
             Semiannual Report to the Congress, management decisions were made on three
             reports during the period, and at the end of the reporting period there were no
             outstanding reports awaiting management decisions.

             When the Audit Followup Official disallows questioned costs, it is typically
             because the grantee or cooperator has responded inadequately to the Arts
             Endowment’s request for supporting documentation, such as canceled checks,
             invoices, contracts, personnel activity reports, or testimonial evidence. Agency
             funds may represent only a small portion of an awardee’s total project costs.
             Deficiencies normally are resolved through the Agency’s audit resolution process,
             and refunds are infrequent.

             Technical Assistance. The Arts Endowment places a high priority on ensuring
             that employees are well informed about policies, procedures, and requirements
             related to grants administration and audits. The Grants & Contracts Office
             routinely conducts training on various topics for Agency staff, including targeted
             one-on-one training as necessary. During the period, the Grants & Contracts
             Office and the OIG continued to provide technical assistance and compliance
             evaluations for grantees. The Grants & Contracts Office also updated internal
             directives and guidance documents.

             FISMA Compliance. The Arts Endowment works closely with the OIG in
             following up on recommendations arising from the annual assessment of the
             Agency’s IT operations. As noted in the OIG’s report, the Agency is actively
             working on all of the OIG’s recommendations.

             Web Site and Technology Enhancements. The Arts Endowment continues to
             provide its “My Grant at a Glance” feature on the Agency Web site. In addition
             to tracking the status of payment requests online, grantees can obtain historical
             reports of their grants back to at least 1988. The reports include the amount of the
             grant, the period of support, and a brief project description.

             We continue to leverage technology to enhance the efficiency or our operations.
             For example, this year we began implementing across all programs (after a
             successful pilot in 2011) the use of the new NEA GrantsOnline™ system, which
             allows grant application reviewers to have access to more application material in


                                               2
             advance of panel meetings than in the past, and to score and comment on
             applications online, improving the efficiency and productivity of application
             review.

             Other Activities. Arts Endowment staff continued to work closely with the OIG
             on issues of mutual interest, such as the independent audit of the Agency’s
             financial statements for fiscal year 2012 (which concluded with an unqualified
             opinion, the Agency’s 10th consecutive).

             B. Comments on OIG’s Sections 1 and 2

             OIG audit, inspection, and evaluation reports on Arts Endowment awardees are
             based upon reviews conducted by the OIG itself or upon OIG analysis of audits
             completed by outside auditors. The outside audits may be performed by State
             audit agencies, by other Federal agencies (generally the agency providing the
             greatest amount of Federal funding to an organization also supported by the Arts
             Endowment), or by independent public accountants engaged by awardees.

Section 2.   Management Report on Final Action on Audits, Inspections, and Evaluations
             with Disallowed Costs for the Six-Month Period Ending September 30, 2012
             (Section 8 of the OIG Report)

             There were no audit, inspection, or evaluation reports with management decisions
             made that were awaiting final action at the beginning of the period. During the
             period, a management decision was made on one evaluation to disallow costs,
             which resulted in a final action being taken. At the end of the period, there were
             no reports awaiting final action. (See Table A).

Section 3.   Management Report on Final Action on Audits, Inspections, and Evaluations
             with Recommendations to Put Funds to Better Use for the Six-Month Period
             Ending September 30, 2012 (Section 9 of the OIG report)

             There were no audit, inspection, or evaluation reports with recommendations to
             put funds to better use awaiting final action as of September 30, 2012 (see Table
             B).

Section 4.   Audit Reports, Inspection Reports, and Evaluation Reports for Which a
             Management Decision Was Made Prior to April 1, 2012, but on Which Final
             Action Has Not Occurred

             There were no audit, inspection, or evaluation reports for which a management
             decision was made prior to April 1, 2012, on which final action has not yet
             occurred.




                                               3
                                                          TABLE A

                         MANAGEMENT REPORT ON FINAL ACTION
           ON AUDITS, INSPECTIONS, AND EVALUATIONS WITH DISALLOWED COSTS
                 FOR THE SIX-MONTH PERIOD ENDING SEPTEMBER 30, 2012


                                                                       # OF            DISALLOWED                 POTENTIAL
                                 ITEM                                REPORTS              COSTS                   REFUNDS

A.    Audit/inspection/evaluation reports with
      management decisions on which final action
      had not been completed at the beginning of
      the reporting period. See Note 1.                                    0                            $0                      $0

B. Audit/inspection/evaluation reports on which
   management decisions were made during the
   reporting period. See Note 2.                                           1                           395                  395

     Subtotal (A+B)                                                        1                           395                  395

C. Audit/inspection/evaluation reports on which final
   action was taken during the reporting period,
   including:

     i.    The dollar value of disallowed costs that
           were recovered by management through:

            a. Collection & offsets                                        1                         $395                  $395
           b. Property                                                     0                              0                      0
           c. Other                                                        0                              0                     0

     ii.    The dollar value of disallowed costs that
            were written off by management.                                0                              0                      0

     Subtotal (i + ii) See Note 3                                          0                            $0                      $0

D. Audit/inspection/evaluation reports for which no final
   action has been taken by the end of the reporting
   period. (A+B-C) See Note 4.                                             0                            $0                      $0

Notes:
  1. Reports in which management has made a decision to disallow costs; however, final actions (e.g., collection, write-offs)
       were not completed by the beginning of the reporting period.
  2. Reports in which management has made a decision, during the reporting period, to disallow costs.
  3. Reports in which final actions were completed during the reporting period.
  4. Reports in which management has made a decision to disallow costs; however, final action was not completed by the end
       of the reporting period.




                                                                4
                                              TABLE B

    MANAGEMENT REPORT ON FINAL ACTION ON AUDITS, INSPECTIONS,
AND EVALUATIONS WITH RECOMMENDATIONS TO PUT FUNDS TO BETTER USE
        FOR THE SIX-MONTH PERIOD ENDING SEPTEMBER 30, 2012

                                                                            FUNDS TO BE
                                                                    # OF      PUT TO
                                 ITEM                             REPORTS   BETTER USE


   A.   Audit/inspection/evaluation reports with management
        decisions on which final action had not been taken at
        the beginning of the reporting period.                       0          $0


   B.   Audit/inspection/evaluation reports on which
        management decisions were made during the period.            0           0

        Subtotal (A+B)                                               0           0


   C. Audit/inspection/evaluation reports on which final action
      was taken during the period:


        i. Dollar value of recommendations
           implemented:

           a. Based on management action                             0           0
           b. Based on proposed legislative action                   0           0


        ii. Dollar value of recommendations not
            implemented                                              0           0


        Subtotal (i+ii)                                              0           0

   D. Audit/inspection/evaluation reports needing final action
      at end of the period. (A+B-C)                                  0          $0




                                                  5
